           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     THE SOCIAL SECURITY
 ADMINISTRATION’S OVERSIGHT
  OF INDIRECT COSTS CLAIMED
 BY DISABILITY DETERMINATION
           SERVICES

    March 2004   A-07-03-23086




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   o Conduct and supervise independent and objective audits and
     investigations relating to agency programs and operations.
   o Promote economy, effectiveness, and efficiency within the agency.
   o Prevent and detect fraud, waste, and abuse in agency programs and
     operations.
   o Review and make recommendations regarding existing and proposed
     legislation and regulations relating to agency programs and operations.
   o Keep the agency head and the Congress fully and currently informed of
     problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   o Independence to determine what reviews to perform.
   o Access to all information necessary for the reviews.
   o Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:       March 16, 2004                                                                            Refer To:

To:         The Commissioner

From:       Acting Inspector General

Subject: The Social Security Administration’s Oversight of Indirect Costs Claimed by
            Disability Determination Services (A-07-03-23086)

        OBJECTIVE
        The objective of our review was to determine if the Social Security Administration’s
        (SSA) oversight of indirect costs claimed by Disability Determination Services (DDS)
        was adequate to ensure that the costs benefit its disability programs equitably.

        BACKGROUND
        SSA reimburses DDSs for 100 percent of allowable expenditures incurred in making
        disability determinations under the Disability Insurance and Supplemental Security
        Income programs.1 The expenditures include both direct and indirect costs. Direct
        costs are those that are readily identifiable to the DDS, such as the costs incurred to
        purchase medical services.2 Indirect costs arise from activities that benefit multiple
        State and Federal agencies but are not readily identifiable to the DDS.3 Indirect costs
        include services, such as accounting, auditing, budgeting, and payroll that benefit all
        agencies in a State. For Fiscal Years (FY) 1998 through 2002, SSA reimbursed DDSs
        about $489 million for indirect costs, as shown in the following table.

                                                FY            DDS Indirect Costs
                                               2002                 $108,585,503
                                               2001                    99,756,430
                                               2000                    95,535,950
                                               1999                    90,956,936
                                               1998                    94,218,208
                                       Total                        $489,053,027




        1
            20 C.F.R. §§ 404.1626 and 416.1026; Program Operations Manual System DI 39501.020.
        2
            48 C.F.R. § 31.202; Office of Management and Budget Circular A-87, Attachment A, § E-1.
        3
            48 C.F.R. § 31.203; Office of Management and Budget Circular A-87, Attachment A, § F-1.
Page 2 – The Commissioner

In accordance with the Office of Management and Budget (OMB) Circular A-87, Cost
Principles for State, Local and Indian Tribal Governments, States can allocate indirect
costs to the Federal government based on the terms of an indirect cost rate and/or a
cost allocation plan (rate/plan).4 The State-developed rate/plan is reviewed, negotiated,
and approved by the cognizant Federal agency.5 Upon the cognizant agency’s
approval, the rate/plan is to be used by all Federal agencies that provide funds to the
State agency(s) covered by the rate/plan, unless prohibited by statute. Appendix B
provides additional background information on indirect costs and the scope and
methodology of our review.

RESULTS OF REVIEW
Our review disclosed opportunities for SSA to improve its oversight of indirect costs
claimed by DDSs to ensure that SSA funds obligated by DDSs through the indirect cost
process benefit SSA’s disability programs and the costs are equitably distributed to its
programs. Improvements are needed because SSA’s current oversight process

      •   relies on the cognizant Federal agencies to represent SSA’s interest in the
          rate/plan review, negotiation, and approval processes. However, the cognizant
          agencies’ process is not designed to represent SSA’s interest to the extent that it
          would identify all incorrect or inequitable indirect cost allocations to DDSs.

      •   delegates indirect cost oversight responsibilities to its regional offices. However,
          SSA did not ensure that the regional offices had the detailed knowledge needed
          to oversee this complicated process.

      •   relies extensively on State and Federal audits to identify and correct problems
          with the approved rate/plan and to ensure the rate/plan is properly executed by
          the DDSs. However, State and Federal audits do not provide annual audit
          coverage of indirect costs charged to SSA by DDSs.




4
    20 C.F.R. §§ 404.1626 and 416.1026; OMB Circular A-87, Attachment E, § A.3.
5
  OMB Circular A-87, Attachment A, § B.6. defines a cognizant Federal agency as “the Federal agency
responsible for reviewing, negotiating, and approving cost allocation plans or indirect cost proposals
developed under this Circular on behalf of all Federal agencies.” OMB Circular A-87,
Attachment E, § D.1.b. gives the title of cognizant agency, if not defined by OMB, to the agency that
provides the most funding to the State.
Page 3 – The Commissioner

SSA RELIES ON THE COGNIZANT AGENCY TO REPRESENT ITS INDIRECT COST
INTERESTS

We found SSA places considerable discretion with the
cognizant Federal agencies to represent SSA’s interest             Regional Offices expressed
during the review, negotiation, and approval of indirect cost      concern that the cognizant
                                                                        agency does not
rates/plans. However, the cognizant agency’s review is               adequately represent
focused on whether or not the rate/plan meets Federal                    SSA’s interest.
               6
requirements. The cognizant agency does not have specific
program information on DDSs or have a detailed understanding of the DDS’ operations,
so it cannot make a precise determination as to whether the rate/plan will result in a
proper and equitable allocation of costs to SSA. Furthermore, while OMB designated
responsibility to certain agency’s to review, negotiate, and approve indirect cost
rates/plans for indirect costs charged by DDSs, SSA is ultimately responsible for
ensuring that DDSs are reimbursed for only those costs that are necessary for making
disability determinations under its programs.7

By accepting the cognizant agency’s approval of the indirect cost rate/plan without
determining its effect on SSA funds, SSA is placed at risk of reimbursing DDSs for
indirect cost services for which it received no benefit. This is an actual risk because the
Office of the Inspector General (OIG) administrative cost audits have identified
inequitable and incorrect indirect cost charges to SSA (see Appendix C for OIG findings
on indirect costs).

To determine if the rate/plan adequately reflects the level of services the DDS receives,
SSA needs to take a more active role in this process. This role includes, in part,
establishing relationships with the cognizant Federal agencies to provide input before
the rate/plan is approved. Currently, only one SSA regional office has routine contacts
with cognizant agencies. The other nine regional offices stated they had limited or no
contact with the cognizant agencies. Furthermore, some regions have experienced
considerable difficulties with one cognizant Federal agency, the Department of
Education (DoE).

●     DoE refused to provide the Dallas regional office with indirect cost proposals prior to
      approval so that the regional office could provide input.

●     The Denver regional office stated that the DoE was not willing to discuss the indirect
      cost rates/plans.

We interviewed management officials responsible for the three cognizant Federal
agencies that review, negotiate, and approve rates/plans for indirect costs charged to
DDSs – Department of Health and Human Services, Department of Labor, and
Department of Education. Each of these officials stated that SSA was welcome to
6
    See Appendix B for the basic steps in the cognizant agency review process.
7
    20 C.F.R. §§ 404.1626 and 416.1026.
Page 4 – The Commissioner

discuss indirect costs with their indirect cost negotiators. SSA’s Office of Disability
Determinations should establish a working relationship with these agencies to ensure
that SSA has a voice in the review, negotiation, and approval of indirect costs
rates/plans.

REGIONAL OFFICES HAVE A LIMITED UNDERSTANDING OF THE COMPLEX
INDIRECT COST RATES AND PLANS

To adequately review an indirect cost rate/plan, SSA            Most regional offices do
must possess a technical knowledge of indirect costs.            not have the expertise
                                                                needed to review indirect
However, most regional offices stated they have only a              cost rates/plans
basic knowledge of indirect costs. In fact, 8 of the 10
regional offices informed us they do not have the expertise needed to adequately review
rates/plans and/or monitor the resolution of indirect cost findings reported in State and
Federal audits. The regional offices also stated when changes are made to a rate/plan
the changes are not explained and are hard to understand. The regional offices receive
an indirect cost line item charge when the DDS submits its SSA-4513 Report of
Obligations and unless the regional office has a detailed knowledge of a DDS’s indirect
cost allocation process, they do not know what services are being provided for the DDS
by the State.

SSA RELIES ON STATE AND FEDERAL AUDITS TO IDENTIFY PROBLEMS WITH
INDIRECT COSTS

Most regional offices believed it is the responsibility of State       Federal and State audit
and Federal auditors to ensure the indirect cost rate/plan            agencies do not provide
                                                                      annual audit coverage of
represents SSA’s interest and ensure the DDS correctly                  DDSs indirect costs.
executed the approved rate/plan. We agree the State single
audits and the OIG’s DDS administrative cost audits play an
important role in the indirect cost process. However, the State and Federal audit
agencies do not provide annual audit coverage of DDS’s indirect costs. Therefore, it is
critical for SSA to take a more active role in the oversight of indirect costs.

●   DDSs do not receive detailed audit testing under the single audit process every year.
    In fact, during State Fiscal Years (SFY) 1999 through 2001, some 28 of the 53 DDSs
    subject to a single audit received detailed testing in only 1 of the 3 SFYs. The DDSs
    did not receive detailed testing in the other two SFYs. Even DDSs with the largest
    SSA expenditures, such as California and Texas, received detailed audit testing for
    only one of the three SFYs. Furthermore, three DDSs received no audit coverage.8

●   The OIG’s administrative cost audits at DDSs provide audit coverage on a cyclical
    schedule ranging from 3 to 10 years. Primarily, the audit coverage is based on

8
  Three DDSs – Vermont, North Dakota, and Guam—did not require detailed audit testing during the
SFYs 1999 through 2001 single audits because SSA funding did not meet the established threshold
required by OMB Circular A-133 to require testing.
Page 5 – The Commissioner

      annual administrative expenditures with DDSs having the largest annual
      administrative expenditures receiving more frequent audit coverage. As such,
      several years may elapse between OIG audit coverage at select DDSs.

SSA IS CONCERNED ABOUT THE COSTS OF AN INDIRECT COST OVERSIGHT
PROCESS

SSA’s Office of Disability Determinations expressed concern to us about the resources
that would be required to improve its oversight of indirect costs. Given its concerns, we
recommend that SSA determine if it is financially feasible to implement an improved
indirect cost oversight process. As part of its feasibility study, SSA may want to
consider initially focusing its oversight efforts at the SSA regions or DDSs that have the
largest indirect cost expenditures. As SSA gains expertise in reviewing indirect cost
rates/plans, it could extend its oversight process to other DDSs and/or regions.

      •   During FY 2002, 5 of SSA’s 10 regions (New York, Atlanta, Chicago, Dallas, and
          San Francisco) had total DDS indirect cost expenditures that exceeded
          $15 million (see Appendix D). The indirect costs claimed by DDSs in these
          5 SSA regions totaled about $87 million and accounted for about 80 percent of
          total DDS indirect costs during FY 2002.

      •   Fifteen DDSs had indirect cost expenditures that exceeded $2 million during
          FY 2002 (see Appendix D). In total, the 15 DDSs claimed indirect costs of about
          $80 million, representing approximately 74 percent of total DDS indirect costs
          during FY 2002.

The results of OIG’s administrative cost audits indicate that the resources SSA invested
in an improved oversight process would result in a positive return. During the period
March 1998 through September 2003, the OIG issued 10 administrative cost audit
reports that contained both direct and indirect cost findings (see Appendix C). The
reports contained monetary findings of about $34 million, of which $16 million related to
indirect costs. The OIG audit results show that SSA is most susceptible to inequitable
and/or unallowable cost allocations in the area of indirect costs. The GAO Standards
for Internal Controls in the Federal Government require federal agencies to establish
and maintain internal controls to identify and address areas with the greatest risk of
fraud, waste, abuse and mismanagement.9 Therefore, SSA should have an adequate
process in place to oversee indirect costs.




9
    Standards for Internal Controls in the Federal Government, Page 1 (GAO/AIMD-00-21.3.1 (11/99)).
Page 6 – The Commissioner

CONCLUSIONS AND RECOMMENDATIONS

The indirect cost process is a unique discipline that must be learned. We acknowledge
the methodologies used to allocate indirect costs to SSA are sometimes very
complicated and beyond the general understanding of individuals who have not been
trained on the subject. However, the complexities of the indirect cost process do not
relieve SSA of its responsibility to ensure that DDSs are reimbursed for only those costs
necessary to make disability determinations under its programs.

Indirect cost oversight is becoming even more critical as some states, faced with fiscal
pressures, explicitly pursue policies to maximize Federal cost reimbursement. Some
states even use consultants and firms that specialize in creating complex cost allocation
plans to claim indirect costs. The cost allocation plans are a highly technical accounting
and allocation maze that at times lessen Federal agencies’ ability to interpret how or to
what agency indirect costs are allocated.

Indirect costs represent the lowest expenditure category of the four categories of DDS
administrative costs (personnel, medical, indirect, and all-other nonpersonnel costs).
However, the indirect cost category is where most monetary findings are identified by
the OIG which indicates that SSA is most susceptible to receiving inequitable and/or
unallowable cost allocations in the indirect cost category of DDS administrative
expenditures. Accordingly, SSA should have a process in place to identify indirect cost
charges that do not benefit its programs equitably.

We recommend that SSA establish an indirect cost oversight process that ensures
adequate technical expertise to evaluate allocation methodologies and to represent
SSA’s interests during the indirect cost negotiation process.

AGENCY COMMENTS

In commenting on our draft report, SSA stated that establishing an indirect cost
oversight process that ensures adequate technical expertise to evaluate allocation
methodologies and to represent SSA's interests during the indirect cost negotiation
process appears difficult and wasteful of its limited resources given the stewardship
currently performed by cognizant Federal agencies on indirect costs. SSA also stated
that additional oversight of indirect costs should be performed by the OIG not SSA. See
Appendix E for the full text of SSA’s comments.
Page 7 – The Commissioner

OIG RESPONSE
We recommended that the Agency conduct a feasibility study to determine whether it
made economic sense to establish an indirect cost oversight process. SSA disagreed
with this recommendation stating that the Agency did “…not believe SSA should
assume comprehensive audit responsibility for the indirect cost category.” While we
agree with this statement, it is not responsive to our recommendation. We did not
recommend, nor would we recommend, that the Agency assume audit responsibility.
Our recommendation was directed to the Agency’s fundamental responsibility to ensure
the effectiveness of internal controls over the indirect costs charged to its disability
programs by DDSs.

OMB Circular A-123 Management Accountability and Control, states stewardship of
Federal resources is the fundamental responsibility of each Federal agency. Agency
employees must ensure that government resources are used efficiently and effectively
to achieve intended program results. Resources must be used consistent with the
agency’s mission, in compliance with laws and regulations, and with minimal potential
for waste, fraud, and mismanagement. In addition, the General Accounting Office
(GAO) Standards for Internal Controls in the Federal Government require federal
agencies to establish and maintain internal controls to identify and address areas with
the greatest risk of fraud, waste, abuse, and mismanagement.

Furthermore, the Sarbanes-Oxley Act has prompted renewed focus on internal controls.
This act specifically requires management to establish, maintain, and evaluate the
internal control structure.10 The American Institute of Certified Public Accountants and
the Public Company Accounting Oversight Board are working to establish new auditing
standards to address the increased focus on internal controls. GAO will continue to
closely monitor both standard setting bodies and will issue clarifying guidance as
necessary on the incorporation of any future standards set by either the American
Institute of Certified Public Accountants or the Public Company Accounting Oversight
Board.11 Accordingly, SSA needs to be proactive and ensure adequate internal controls
over indirect costs to prevent the identification of a significant internal control deficiency
in its financial statements under future standards that may be implemented based on
the Sarbanes-Oxley Act.




10
  Public Law No. 107-204, § 302. PricewaterhouseCoopers’ position paper entitled Management’s
Responsibility for Assessing the Effectiveness of Internal Control Over Financial Reporting Under Section
404 of the Sarbanes-Oxley Act (December 2003), discusses management’s responsibilities under the
Sarbanes-Oxley Act and states that management’s responsibility for assessing internal controls cannot
be delegated to the auditor or any other third party.
11
     Government Auditing Standards, pages 3 and 4 (June 2003).
Page 8 – The Commissioner

Due to the inherent risk in indirect costs, which will likely total over $1 billion over a
10-year period,12 we encourage the Agency to revisit the intent of our recommendation
to improve its stewardship and technical oversight in this area.




                                                      S
                                                      Patrick P. O’Carroll, Jr.




12
  For FYs 1998 through 2002, SSA reimbursed DDSs about $500 million for indirect costs. We estimate
that the indirect costs will remain at approximately the same level for FYs 2003 through FY 2007.
Accordingly, during this 10-year period SSA will reimburse DDSs about $1 billion for indirect costs.
                                        Appendices
Appendix A – Acronyms

Appendix B – Background, Scope and Methodology

Appendix C – Indirect Cost Findings Reported in the Office of the Inspector General
            Administrative Cost Audits

Appendix D – Indirect Costs Claimed by Disability Determination Services for Fiscal
            Years 1998 through 2002

Appendix E – Agency Comments

Appendix F – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
   ASMB        Assistant Secretary for Management and Budget

   DDS         Disability Determination Service

   DoE         Department of Education

   DoL         Department of Labor

   FY          Fiscal Year

   GAO         General Accounting Office

   HHS         Department of Health and Human Services

   OIG         Office of the Inspector General

   OMB         Office of Management and Budget

   Rate/plan   Indirect cost rate and/or cost allocation plan

   SFY         State Fiscal Year

   SSA         Social Security Administration
                                                                      Appendix B

Background, Scope and Methodology
BACKGROUND

Indirect costs benefit common activities and cannot be assigned to a specific project or
direct cost object. These costs are incurred by each department or agency that carries
out Federal awards. There are two major types of costs included in indirect costs—
departmental and statewide. Departmental indirect costs are incurred within a State
department and benefit only components of the department. Statewide indirect costs
are incurred at a level above the departmental agency and benefit most departments
(and their components) in the State.

Indirect costs are allocated to Federal agencies based on an indirect cost rate and/or a
cost allocation plan (rate/plan).1 Cognizant agencies are the Federal agencies that the
Office of Management and Budget (OMB) has designated as responsible for reviewing,
negotiating, and approving rates/plans.2 The Social Security Administration’s (SSA)
regional offices identified three cognizant Federal agencies—Department of
Education (DoE), Department of Labor (DoL), and Department of Health and Human
Services (HHS)—responsible for reviewing, negotiating, and approving rates/plans for
indirect costs charged to Disability Determination Services (DDS). The cognizant
agency was developed to simplify the relations between Federal grantees and awarding
agencies.

The OMB Circular A-87 Cost Principles for State, Local and Indian Tribal Governments,
establishes the principles and standards for the cost for Federal awards carried out
through grants, and cost-reimbursement contracts.3 Under this circular, the State
governmental unit submits a rate/plan to its cognizant agency. The cognizant agency
reviews, negotiates, and approves the rate/plan on a timely basis. The cognizant
agency review process is designed to determine if the plan/rate meets Federal
requirements. The following table outlines the basic steps in the cognizant agency’s
review process.




1
    OMB Circular A-87, Attachment A, § F.
2
    OMB Circular A-87, Attachment A, § B.6.
3
    OMB Circular A-87, 1. Purpose.

                                              B-1
                                 Steps in the Cognizant Agency Review Process4

            1. Review the submission for materiality, completeness, and reliability of supporting data,
               including audited financial statements.
            2. Acknowledge receipt and request any needed additional information.
            3. Review prior negotiation and audit experience; assess prior agreements and applicable
               conditions.
            4. Assess the submissions general reliability and the governmental unit’s financial condition.
            5. Determine the extent to which coordination with other awarding agencies may be
               necessary.
            6. Review the proposal for accuracy and determine whether it includes all activities and costs
               of the governmental entity.
            7. Determine whether unallowable costs have been excluded and whether allocation methods
               and billing mechanisms are appropriate and properly designed.
            8. Assess what the appropriate rate base (salaries and wages, modified total direct cost, etc.)
               should be for the resulting indirect cost rate and the extent to which any rate established
               should be subsequently adjusted.


SCOPE AND METHODOLOGY
To achieve our objective we:

      •   Reviewed the Assistant Secretary for Management and Budget (ASMB C-10)
          Review Guide for State and Local Governments State/Local-Wide Central
          Service Cost Allocation Plans and Indirect Cost Rates.

      •   Reviewed OMB Circular A-87 Principles for State, Local and Indian Tribal
          Government.

      •   Reviewed OMB Circular A-133 Audits of States, Local, and Nonprofit
          Organizations.

      •   Reviewed indirect cost findings reported in the Office of the Inspector General’s
          DDS administrative cost audit reports issued during fiscal years 1998 through
          2003.

      •   Obtained and analyzed information on the single audit coverage received by
          DDSs during State Fiscal Years 1999 through 2001.

      •   Interviewed staff from the Federal cognizant agencies HHS, DoE, DoL to obtain
          information on their indirect cost process.

      •   Issued a questionnaire to the SSA’s 10 regional Centers for Disability Programs
          to collect indirect cost information.

      •   Responses were received from all 10 regional offices and the information was
          compiled and analyzed.



4
    ASMB C-10, Part 6.5.1.
                                                    B-2
We performed our review in Kansas City, Missouri from May 2003 through
September 2003. Our review was performed in accordance with generally accepted
government auditing standards.




                                    B-3
                                                                                      Appendix C

Indirect Cost Findings Reported in the Office of
the Inspector General’s Administrative Cost
Audits
   Common                                                                                  Questioned
 Identification                Title                              Finding                    Costs
    Number
A-04-96-54001     Audit of Tennessee’s              The Social Security                       $21,769
                  Disability Determination          Administration (SSA) reimbursed
                  Services Administrative Costs     the Disability Determination
                  (Fiscal Years [FY] 1993           Services (DDS) for indirect costs
                  through 1995)                     related to internal audit fees;
                                                    however, no audit services or
                                                    benefits were received.

                  Audit of Administrative Costs     The DDS claimed indirect costs            352,233
A-05-96-51095
                  at the Michigan Disability        based on a proposed fixed rate
                  Determination Services (FYs       and did not adjust the costs
                  1993 and 1994)                    claimed when the final indirect
                                                    cost rate was approved.

A-09-97-51006     Audit of Administrative Costs     The DDS claimed indirect costs           3,580,673
                  at the California Disability      for activities that were incorrectly
                  Determination Services (FYs       charged to the departmental
                  1995 and 1996)                    indirect cost pool.

A-13-98-51007     Audit of Administrative Costs     The DDS used incorrect indirect           460,585
                  Claimed by the Ohio               cost rates and made
                  Rehabilitation Services           computational errors, resulting in
                  Commission for Its Bureau of      unallowable costs.
                  Disability Determination
                  Services (FYs 1995 through
                  1997)

A-13-98-81032     Costs Claimed by the State of     The DDS claimed indirect costs            117,602
                  Illinois on the Social Security   in excess of the contract
                  Administration’s Contact          specified ceiling rate.
                  Number 600-95-22673
                  (FY 1995)

A-07-02-22003     Audit of the Administrative       Indirect costs were not allocated        4,923,606
                  Costs Claimed by the Kansas       in accordance with the approved
                  Disability Determination          cost allocation plan and costs
                  Services (FYs 1998 through        were not allocated to all
                  2000)                             benefiting components.




                                                    C-1
  Common                                                                            Questioned
Identification               Title                          Finding                   Costs
   Number
A-15-00-20053    Administrative Costs Claimed   Indirect costs claimed were not       $751,238
                 by the New York Disability     supported by official accounting
                 Determinations Division (FYs   records.
                 1998 and 1999)

A-09-02-22022    Administrative Costs Claimed   The DDS charged indirect costs        1,708,097
                 by the California Disability   to SSA that did not benefit its
                 Determination Services (FYs    programs.
                 1999 and 2000)

A-05-02-22019    Administrative Costs Claimed   The DDS claimed indirect costs        4,034,660
                 by the Illinois Disability     based on an estimated rate, but
                 Determination Services (FYs    did not adjust the costs claimed
                 1999 through 2001)             when the final rate was
                                                approved.

A-09-03-13012    Administrative Costs Claimed   Indirect costs claimed were not        406,258
                 by the Hawaii Department of    supported by official accounting
                 Human Services (FYs 1999       records.
                 through 2002)

                                                                            Total   $16,356,721




                                                C-2
                                                                                    Appendix D

Indirect Costs Claimed by Disability
Determination Services (DDS) for Fiscal Years
(FY) 1998 through 20021
     DDS INDIRECT COSTS BY SOCIAL SECURITY ADMINISTRATION REGION
       DDS          FY 2002   FY 2001   FY 2000    FY 1999   FY 1998
National Total             $108,585,503      $99,756,430      $95,535,950      $90,956,936     $94,218,208
Boston Region                $2,205,026       $1,935,160       $1,961,607       $1,995,017      $2,015,959
Connecticut                     764,463          706,026          715,706          661,597         622,923
Maine                           275,895          165,298          249,344          228,553         315,087
Massachusetts                   416,662          388,677          429,152          405,370         445,634
New Hampshire                   238,262          163,728          154,450          224,638         210,876
Rhode Island                    336,000          335,000          251,978          313,833         307,376
Vermont                         173,744          176,431          160,977          161,026         114,063
New York Region             $19,012,302      $17,227,481      $13,772,798      $11,436,123     $13,178,482
New Jersey                    4,294,490        4,412,312        4,102,598        2,817,144       2,293,594
New York                     13,475,108       11,385,705        8,353,957        7,348,975       9,650,819
Puerto Rico                   1,242,704        1,429,464        1,316,243        1,270,004       1,234,069
Philadelphia Region          $8,464,317       $7,672,852       $7,083,291       $8,209,188      $8,323,258
Delaware                        635,241          415,998          368,597          468,623         568,555
Washington D.C.                 633,417          556,204          606,899          634,995         517,343
Maryland                      2,018,410        1,616,846        1,523,057        1,666,866       1,608,421
Pennsylvania                    423,578          244,431          310,610        1,146,095       1,015,644
Virginia                      3,178,431        3,210,817        2,721,206        3,129,511       3,730,280
West Virginia                 1,575,240        1,628,556        1,552,922        1,163,098         883,015
Atlanta Region              $17,480,352      $17,854,589      $17,373,757      $16,345,651     $16,172,783
Alabama                       2,894,684        4,104,921        3,852,793        1,619,907       2,960,835
Florida                       2,741,637        3,570,864        2,272,045        2,189,994       2,040,442
Georgia                       2,890,335        1,450,886        2,188,558        2,159,475       2,128,930
Kentucky                      1,930,624        2,265,900        2,042,335        1,882,176       1,815,519
Mississippi                   1,150,486        1,109,146          995,889        2,099,539       1,986,622
North Carolina                1,468,036        1,266,273        2,049,156        2,671,058       1,876,210
South Carolina                1,867,329        1,723,971        1,554,908        1,444,410       1,256,582
Tennessee                     2,537,221        2,362,628        2,418,073        2,279,092       2,107,643
Chicago Region              $16,295,648      $16,603,279      $17,033,365      $15,804,791     $15,873,538
Illinois                      2,518,921        3,785,784        3,599,926        3,669,133       3,632,427
Indiana                       1,322,986        1,259,555        1,316,997        1,582,056       1,428,546
Michigan                      2,994,774        2,446,352        2,784,339        2,620,680       2,577,482
Minnesota                       920,693        1,300,335        1,208,716          887,632         940,684
Ohio                          8,138,496        7,442,298        7,776,864        6,660,978       6,816,624
Wisconsin                       399,778          368,955          346,523          384,312         477,775
Dallas Region               $15,350,059      $10,550,249      $11,426,995      $12,607,797     $12,015,038

1
  The indirect cost information in this appendix was provided by SSA’s Office of Disability Determinations.
We did not verify the accuracy of the indirect cost information. We found that the information contained
some large variances in the DDS indirect costs amounts between FYs. The Office of Disability
Determinations was able to explain some of the variances, but not all. Given the unresolved variances,
this is the most reliable data Office of Disability Determinations could provide.
                                                       D-1
     DDS INDIRECT COSTS BY SOCIAL SECURITY ADMINISTRATION REGION
       DDS          FY 2002   FY 2001   FY 2000    FY 1999   FY 1998
Arkansas                    98,696        98,482        85,179        72,608       103,194
Louisiana                2,369,014     2,441,560     2,363,164     2,695,967     1,906,537
New Mexico                 999,783       922,224       880,466       884,086       858,353
Oklahoma                   988,009       788,909        55,770             0        75,219
Texas                   10,894,557     6,299,074     8,042,416     8,955,136     9,071,735
Kansas City Region      $5,259,658    $4,705,375    $4,596,639    $5,206,867    $4,320,658
Iowa                       870,090       762,455       687,055       692,831       458,078
Kansas                   2,505,900     1,554,590     1,457,011     1,391,372     1,490,069
Missouri                 1,544,774     2,102,537     2,193,204     2,882,853     2,148,710
Nebraska                   338,894       285,793       259,369       239,811       223,801
Denver Region           $2,329,077    $2,350,696    $2,509,423    $2,363,895    $1,924,496
Colorado                 1,100,006     1,251,126     1,430,360     1,300,328       982,748
Montana                    240,198       193,053       143,533       164,212       100,842
North Dakota               173,801       133,143       131,857        96,954       113,002
South Dakota               231,561       215,371       207,099       209,455       236,686
Utah                       455,513       474,748       480,852       464,904       420,078
Wyoming                    127,998        83,255       115,722       128,042        71,140
San Francisco Region   $18,713,832   $17,682,232   $16,804,159   $14,554,670   $17,745,244
Arizona                  1,289,844     1,147,899     1,134,943     1,171,282     1,174,862
California              16,522,597    15,600,535    14,740,181    12,335,557    15,692,269
Guam                        10,992        13,620         6,883         2,302         2,870
Hawaii                     367,487       413,410       450,450       391,496       332,979
Nevada                     522,912       506,768       471,702       654,033       542,264
Seattle Region          $3,475,232    $3,174,517    $2,973,916    $2,432,937    $2,648,752
Alaska                     412,736       389,726       369,598       175,718       390,744
Idaho                       45,222        77,470        13,131             0        20,094
Oregon                   1,910,629     1,802,693     1,734,957     1,548,565     1,576,642
Washington               1,106,645       904,628       856,230       708,654       661,272




                                          D-2
                     INDIRECT COSTS BY
                 DDS EXPENDITURE AMOUNT
       DDS         FY 2002           DDS           FY 2002
California       $16,522,597   New Mexico            $999,783
New York          13,475,108   Oklahoma               988,009
Texas             10,894,557   Minnesota              920,693
Ohio               8,138,496   Iowa                   870,090
New Jersey         4,294,490   Connecticut            764,463
Virginia           3,178,431   Delaware               635,241
Michigan           2,994,774   Washington D.C.        633,417
Alabama            2,894,684   Nevada                 522,912
Georgia            2,890,335   Utah                   455,513
Florida            2,741,637   Pennsylvania           423,578
Tennessee          2,537,221   Massachusetts          416,662
Illinois           2,518,921   Alaska                 412,736
Kansas             2,505,900   Wisconsin              399,778
Louisiana          2,369,014   Hawaii                 367,487
Maryland           2,018,410   Nebraska               338,894
Kentucky           1,930,624   Rhode Island           336,000
Oregon             1,910,629   Maine                  275,895
South Carolina     1,867,329   Montana                240,198
West Virginia      1,575,240   New Hampshire          238,262
Missouri           1,544,774   South Dakota           231,561
North Carolina     1,468,036   North Dakota           173,801
Indiana            1,322,986   Vermont                173,744
Arizona            1,289,844   Wyoming                127,998
Puerto Rico        1,242,704   Arkansas                98,696
Mississippi        1,150,486   Idaho                   45,222
Washington         1,106,645   Guam                    10,992
Colorado           1,100,006               Total $108,585,503




                             D-3
                  Appendix E

Agency Comments
                                           SOCIAL SECURITY


MEMORANDUM                                                                           33119-24-1070


Date:      February 20, 2004                                                         Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Review of Social Security Administration’s
           Oversight of Indirect Costs Claimed by State Disability Determination Services”
           (A-07-03-23086)--INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the recommendation are
           attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Janet Carbonara at extension 53568.

           Attachment:
           SSA Response




                                                            E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG)
DRAFT REPORT, “REVIEW OF SOCIAL SECURITY
ADMINISTRATION’S OVERSIGHT OF INDIRECT COST CLAIMED BY
STATE DISABILITY DETERMINATION SERVICES” A-07-03-23086

Below are our comments on the report recommendation.

Recommendation 1

The Social Security Administration (SSA) should determine if it is financially feasible to
establish an indirect cost oversight process that ensures adequate technical expertise to
evaluate allocation methodologies and to represent SSA’s interests during the indirect
cost negotiation process. Based on the results of this feasibility study, SSA should take
appropriate action to improve its oversight of indirect costs.

Comment

We disagree with conducting a feasibility study, as we do not believe SSA should
assume comprehensive audit responsibility for the indirect cost category. Ensuring that
costs are properly funneled through the established allocation plan is where SSA’s
focus and responsibility reside. The Office of Management and Budget (OMB) Circular
A-87, Attachment A.B.6 defines a cognizant Federal agency as “the Federal agency
responsible for reviewing, negotiating and approving cost allocation plans or indirect
cost proposals developed under this circular, on behalf of all Federal agencies.” OMB
Circular A-87 further gives the title of cognizant agency, if not defined by OMB, to the
agency that provides the most funding to the state. The role of the cognizant agency is
to ensure that the State’s indirect costs are distributed to all benefiting State agencies
equitably and that the costs are allowable, reasonable and allocable to Federal awards.
According to the Health and Human Service (HHS) indirect cost allocation plan review
guide, the Division of Cost Allocation (DCA) compares new submissions with prior
negotiations, audit findings, and the cost principles in OMB’s circular A-87. They
reconcile the proposal to the State’s financial statements and at a minimum conduct a
3-year trend analysis of the cost pools and allocation bases. The DCA determines
whether the allocating methods used are appropriate and accurate. Furthermore, the
DCA is familiar with the organizational structures of the States and notes any changes
from year to year.

The DCA practices stewardship in protecting the interest of the Federal awards. Based
on their years of experience, documentation and analysis, they are in a good position to
review and negotiate the indirect cost allocation plans.

We agree that a vast majority of our Regional Offices (RO) have indicated they do not
have the expertise needed to adequately review cost allocation plan (CAP) rates and/or
monitor the resolution of indirect cost findings reported in State and Federal audits.
Organizationally, there is currently no RO component that would have the expertise to
handle such administrative details. The cognizant Federal agencies have the
necessary technical expertise and responsibility for acting on behalf of all Federal
                                           E-2
agencies. Therefore, duplicating the expertise required of the cognizant agency to deal
with the very complicated State indirect cost agreements for the ten regions would
appear difficult and wasteful of our limited resources. However, we are in favor of
obtaining additional training for RO staff to more skillfully interact with cognizant Federal
agencies.

The RO has demonstrated its oversight in requesting specific audits of indirect costs
when they detect a problem. An example is noted in Appendix C of this report, where
as a result of effective SSA oversight, indirect costs were audited as the result of a RO
request. During the audit OIG found $4.9 million in questioned costs (Kansas City),
which was the largest monetary finding cited in this report. It should be noted that the
findings in Appendix C are not related to the negotiation process, but rather the
implementation of established plans (e.g., incorrect rates used, computational errors,
unallowable charges, etc.). Those are the type of areas found through an audit.

Another State (Illinois) cited in Appendix C was a result of the Agency’s long-
established process for adjusting indirect cost charges when final indirect rates are
determined. This process, which strictly adheres to regulatory policy, allows indirect
costs to be claimed using an agreed upon “provisional” rate (generally, this is the last
final/approved rate). This is done in the normal course of SSA/DDS procedures and not
as the result of the audit.

We do agree that oversight activities are needed during the State’s implementation of
the plans, which we firmly believe lies with the audit process. Therefore, it would be
more effective to expand the OIG role by having them provide support to SSA in
determining the accuracy of indirect costs. OIG staff is better positioned to perform
substantive reviews of applicable agreements. RO staff would subsequently act on any
OIG findings including those in the area of indirect costs. If significant value is found in
annual OIG audits, then OIG should perform those audits as part of their normal
oversight of SSA’s fiscal operations.




                                             E-3
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director (816) 936-5591

   Shannon Agee, Audit Manager (816) 936-5590

Acknowledgments

In addition to those named above:

   Kenneth Bennett, IT Specialist

   Karis Gaukel, Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-03-23086.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
